No. 19-808
IN THE
___________
LEIBUNDGUTH STORAGE & VAN SERVICE, INC.,
PETITIONER,
V.

VILLAGE OF DOWNERS GROVE,
RESPONDENT.
___________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit
__________
REPLY IN SUPPORT OF CERTIORARI
__________
Jeffrey M. Schwab
Counsel of Record
Brian Kelsey
Reilly Stephens
LIBERTY JUSTICE CENTER
190 LaSalle St., Ste. 1500
Chicago, IL 60603
(312) 263-7668
jschwab@libertyjusticecenter.org
Counsel for Petitioner

i
TABLE OF CONTENTS

TABLE OF AUTHORITIES .................................... ii
REPLY BRIEF ........................................................... 1
ARGUMENT ............................................................... 2
I. The Village’s arguments for denying the
petition fail to refute Leibundguth’s reasons for
granting the petition. .............................................. 2
A. Lower courts have acknowledged the
tension between Reed and Central Hudson
when considering what level of scrutiny applies
to challenges to content-based restrictions on
commercial speech................................................... 3
B. The application of Central Hudson is
inconsistent and unpredictable and cannot be
squared with the original intent of the
Framers. ..................................................................... 6
II. Respondent’s adoption of a substitution
clause in its Sign Ordinance is irrelevant to
Petitioner’s claims but highlights the
inconsistency in the Court’s treatment of
commercial speech................................................... 8
CONCLUSION ........................................................... 9

ii
TABLE OF AUTHORITIES
Cases
Central Hudson Gas & Elec. Corp. v. Public Svc.
Comm’n, 447 U.S. 557 (1980) .................................. 1
Reed v. Town of Gilbert,
135 S. Ct. 2218, 2227 (2015) ................................ 1, 2
Thomas v. Bright, 937 F.3d 721 (6th Cir. 2019) ......... 4

1
REPLY BRIEF
In this case, Petitioner Leibundguth Moving & Van
Service, Inc. brought a First Amendment challenge to
several provisions of Respondent Village of Downers
Grove’s Sign Ordinance that treat non-commercial
signs more favorably than commercial signs. Specifically, the Ordinance provides restrictions on the size
and number of some signs while making exceptions for
certain non-commercial signs. And it purports to ban
painted signs, while allowing non-commercial painted
murals and flags.
In its petition for writ of certiorari, Petitioner provided two reasons why this Court should grant its petition:
First, the Court should grant the petition because
of the tension between two of this Court’s cases: In
Reed v. Town of Gilbert, 135 S. Ct. 2218, 2227 (2015)
this Court affirmed that content-based restrictions on
speech are subject to strict scrutiny. But in Central
Hudson Gas & Elec. Corp. v. Public Svc. Comm’n, 447
U.S. 557 (1980), this Court held that laws that target
commercial speech are subject to intermediate scrutiny. Pet. 9-10. The tension arises over what level of
scrutiny is appropriate when a content-based restriction on commercial speech treats non-commercial
speech more favorably. Id. The Court should grant the
petition to resolve this dilemma.
Second, the Court should grant the petition because it should overturn the holding in Central Hudson, which provides lesser protection to commercial

2
speech than to non-commercial speech. There is no basis to hold that commercial speech fits in a historic or
traditional category of speech where content-based restrictions on speech have been permitted. Pet. 18. And
the application of Central Hudson to restrictions on
commercial speech by the lower courts has been inconsistent and unpredictable. Id.
The argument provided by Respondent in its Brief
in Opposition for denying the petition not only fails to
refute the reasons Petitioner gives, but actually supports the Petitioner’s reasons why this Court should
grant the petition.
ARGUMENT
I.

The Village’s arguments for denying the petition fail to refute Leibundguth’s reasons
for granting the petition.

Respondent does not dispute that its Sign Ordinance treats non-commercial signs more favorably
than commercial signs. Br. in Opp. 12. Yet Respondent
refuses to acknowledge that such differential treatment of commercial signs compared with non-commercial signs is content-based under this Court’s decision
in Reed v. Town of Gilbert, 135 S. Ct. 2218, 2227
(2015). Br. in Opp. 13.
In Reed, this Court held that content-based restrictions on speech are those that apply to particular
speech because of the topic discussed or the idea or
message expressed. There can be no dispute that regulations that restrict commercial signs, while permitting non-commercial signs, are content based under

3
Reed’s framework – they clearly apply to speech because of the topic discussed (commercial speech).
Respondent’s refusal to acknowledge that treating
commercial speech less favorably than non-commercial speech is a content-based restriction on speech undermines the reasons it gives why this Court should
not grant Leibundguth’s petition.
A. Lower courts have acknowledged the
tension between Reed and Central Hudson when considering what level of
scrutiny applies to challenges to content-based restrictions on commercial
speech.
Respondent refuses to acknowledge that lower
courts have addressed the tension between Reed and
Central Hudson on whether strict scrutiny or intermediate scrutiny analysis should apply in cases challenging content-based restrictions to commercial speech.
Respondent asserts that it is “not aware of any decision that even questions whether Reed somehow converts a municipal sign ordinance into a content-based
ordinance requiring strict scrutiny simply because the
non-commercial sign regulations are different than
more restrictive commercial regulations.” Br. in Opp.
10.
Yet in this very case, the District Court acknowledged that the restrictions Leibundguth is challenging
are content-based and questioned whether Reed required the application of strict scrutiny to all contentbased restrictions on speech. Even though the District

4
Court ultimately concluded that it must apply Central
Hudson intermediate scrutiny because – although it
acknowledged the tension between Reed and Central
Hudson – it concluded that absent an express overruling of Central Hudson, lower courts must continue to
apply Central Hudson to content-based restrictions on
commercial speech. Pet. App. 37a-39a.
Indeed, the petition provided a litany of lower court
decisions acknowledging that restrictions that apply
only to commercial speech are content-based and the
tension between Reed’s holding that content-based restrictions on speech are subject to strict scrutiny and
Central Hudson’s holding that restrictions on commercial speech are subject to intermediate scrutiny. Pet.
10-12. Although these courts ultimately apply Central
Hudson intermediate scrutiny, the fact that these
cases all acknowledge the tension between Reed and
Central Hudson is exactly the reason this Court should
grant Leibundguth’s petition and clarify the appropriate standard.
Further, in support of its argument that there is no
confusion in the lower courts on the proper level of
scrutiny to apply to content-based restrictions on commercial speech, Respondent asserts that the Seventh
Circuit’s opinion in this case mistakenly read Thomas
v. Bright, 937 F.3d 721 (6th Cir. 2019) as holding that
Reed supersedes or overturns Central Hudson. Br. in
Opp. 10. The Seventh Circuit in this case stated that
“[o]ne circuit recently held that Reed supersedes Central Hudson.” Pet. App. 3a (citing Thomas v. Bright,
937 F.3d 721 (6th Cir. 2019)). Respondent points out
that the court in Bright limited its analysis to the noncommercial speech elements involved and specifically

5
refused to address the commercial speech doctrine. Br.
in Opp. 11.
Petitioner does not necessarily dispute this analysis (though the Sixth Circuit did acknowledge that under its reading of the statute at issue, it applied only
to commercial speech before admitting that defendant
in that case was enforcing the statute against plaintiff’s non-commercial speech). Contrary to Respondent’s assertion, Petitioner does not claim that the
Sixth Circuit held that Reed supersedes Central Hudson; rather it simply pointed out that that’s what the
Seventh Circuit’s opinion below stated.
But even if Respondent is correct that the Seventh’s Circuit’s understanding of the Sixth Circuit’s
holding is Thomas v. Bright is incorrect, that simply
reinforces Petitioner’s claim that there is confusion in
the lower courts over whether strict scrutiny applies to
content-based restrictions on commercial speech.
In any event, Respondent simply ignores numerous
lower courts who have acknowledged that Reed introduces confusion over whether strict or intermediate
scrutiny applies to content-based restrictions on commercial speech, even though those courts have stated
that they will continue to apply intermediate scrutiny
until this Court acts to clarify whether Reed requires
strict scrutiny in such cases. The Court should grant
the petition to provide such clarity.

6
B. The application of Central Hudson is inconsistent and unpredictable and cannot be squared with the original intent
of the Framers.
Respondent’s second reason for denying the petition – that commercial speech and non-commercial
speech have historically been treated differently – similarly supports granting the petition, rather than opposing it. Br. in Opp. 12. Indeed, the petition plainly
acknowledges that this Court has treated commercial
and non-commercial speech differently historically,
but points out that not only is this treatment inconsistent with Reed, but that there is no basis to hold
that commercial speech fits in a historic or traditional
category of speech where content-based restrictions on
speech have been permitted. Pet. 18. Further, the application of Central Hudson to restrictions on commercial speech by the lower courts has been inconsistent
and unpredictable. Id. These are important reasons
why the Court should grant the petition that Respondent fails to address.
Moreover, Respondent claims that it is required to
treat non-commercial signs more favorably than commercial signs in its Sign Ordinance under this Court’s
precedent. Br. in Opp. 13 (asserting that the Sign Ordinance “does exactly what it is supposed to do -- favor
non-commercial speech by imposing restrictions on
commercial speech that do not apply to non-commercial speech.”) This disturbing admission by Respondent is another aspect of the brief in opposition that actually supports granting the petition. Respondent apparently believes that it is required to impose content-

7
based restrictions on commercial speech in its Sign Ordinance under Reed. Thus, the Village mistakenly believes that Petitioner’s claim that Reed required content-based restrictions on commercial speech be subject to strict scrutiny would create a Catch-22:
Should Leibundguth’s version of the
Reed framework be adopted, the First
Amendment would obligate the Village
to adopt sign regulations that afford
greater protection to non-commercial
speech over commercial speech. But in
writing those differing regulations for
commercial and non-commercial signs,
the same First Amendment would render the sign ordinance per se contentbased and presumptively invalid. This
Catch-22 is untenable and cannot be
the embraced outgrowth of Reed.
Br. in Opp. 14. Respondent is fundamentally wrong
about two important points. First, it is wrong that
Reed somehow requires that it enact sign regulations
that favor non-commercial speech over commercial
speech. Respondent fails to cite the basis for this mistaken belief, but it is clear that this Court’s decision in
Reed applying strict scrutiny to restrictions on speech
that are content-based does not require municipalities
to favor certain signs over others. Indeed, it does the
opposite. Second, Respondent mistakenly believes that
restrictions that favor non-commercial speech over
commercial speech are not content-based. Even the
lower courts that apply Central Hudson intermediate
scrutiny to restrictions on speech that favor non-commercial speech over commercial speech, such as the

8
District Court in this case, acknowledge that such restrictions are content-based.
Thus, if this Court does not grant the petition, not
only will there continue to be tension about whether
strict scrutiny or intermediate scrutiny should apply
to content-based restrictions on commercial speech,
but at least one municipality, the Village of Downers
Grove, Illinois will enforce content-based restrictions
under the mistaken belief that it is required by Reed
to do so.
II. Respondent’s adoption of a substitution
clause in its Sign Ordinance is irrelevant to
Petitioner’s claims but highlights the inconsistency in the Court’s treatment of commercial speech.
While Respondent refuses to acknowledge that restrictions on signs that favor non-commercial speech
over commercial speech are content-based, it does
acknowledge that restrictions on signs that favor commercial speech over non-commercial speech are content-based. Indeed, Respondent explains that it has
taken precautions against this kind of content-based
discrimination by adopting a substitution clause in its
Sign Ordinance. Br. in Opp. 15. As the Village explains, the substitution clause permits “the owner of
any sign allowed under the sign ordinance to substitute any non-commercial message for any other message of either permitted noncommercial or commercial
copy.” Id.

9
But the Village’s inclusion of a substitution clause
provides no reason to deny the petition. The substitution clause protects against situations where the Sign
Ordinance might treat commercial speech more favorably than non-commercial speech by allowing an
owner to substitute a non-commercial message for a
permitted commercial message. But the substitution
clause only works one way: It does not allow commercial copy to replace existing permitted non-commercial
copy. The substitution clause does not apply to this
case at all, where the owner of commercial signs alleges that the Sign Ordinance treats non-commercial
signs more favorably than commercial signs. Thus, the
inclusion of the substitution clause provides no reason
to deny the petition.
If anything, the substitution clause is a reminder of
a reason why this Court should grant Leibundguth’s
petition – the inconsistency of applying strict scrutiny
to content-based restrictions on non-commercial
speech that favor commercial speech, while applying
intermediate scrutiny to content-based restrictions on
commercial speech that favor non-commercial speech.
This inconsistent approach is precisely how the lower
courts have been applying this Court’s decision in
Reed. Petitioner requests that this Court grant its petition to end this disparity.
CONCLUSION
Rather than providing reasons why this Court
should deny the petition, Respondent not only reinforcing the reasons that Petitioner provides for granting
the petition, but also, in its mistaken conclusion that
Reed requires it to treat non-commercial speech more

10
favorably than commercial speech, Respondent provides an additional reason that this Court should
grant the petition. Petitioner, therefore, asks this
Court to grant its petition for writ of certiorari.
Respectfully submitted,

February 11, 2020

Jeffrey M. Schwab
Counsel of Record
Brian Kelsey
Reilly Stephens
LIBERTY JUSTICE CENTER
190 LaSalle St., Ste. 1500
Chicago, IL 60603
(312) 263-7668
jschwab@libertyjusticecenter.org
Counsel for Petitioner

